No. 20A_____

In The

Supreme Court of the United States
PIVOTAL SOFTWARE, INC., ET AL.,
Applicants,
v.
ZHUNG TRAN, ET AL.,
Respondents.
APPLICATION FOR A STAY PENDING THE DISPOSITION OF
APPLICANTS’ PETITION FOR A WRIT OF CERTIORARI AND REQUEST
FOR AN IMMEDIATE ADMINISTRATIVE STAY
CERTIFICATE OF SERVICE
I, Deanne E. Maynard, a member of the Bar of this Court and counsel of
record for Applicants, hereby certify that on this 3rd day of May, 2021, I caused
to be served a single copy of the Application for a Stay Pending the Disposition of
Applicants’ Petition for a Writ of Certiorari and Request for an Immediate
Administrative Stay in the above-titled case by third-party commercial carrier for
overnight delivery, upon the following:

John T. Jasnoch
SCOTT+SCOTT ATTORNEYS AT
LAW LLP
600 W. Broadway
Suite 3300
San Diego, CA 92101
(619) 233-4565
jjasnoch@scott-scott.com

Counsel for Plaintiff and
Respondent Jason Hill

Peretz Bronstein
BRONSTEIN, GEWIRTZ &
GROSSMAN, LLC
60 East 42nd Street
Suite 4600
New York, NY 10165
(212) 697-6484
peretz@bgandg.com

Counsel for Plaintiff and
Respondent Jason Hill

David W. Hall
HEDIN HALL LLP
Four Embarcadero Center
Suite 1400
San Francisco, CA 94104
(415) 766-3534
dhall@hedinhall.com

Counsel for Plaintiff and
Respondent Nhung Tran

Reed R. Kathrein
Danielle Smith
Lucas E. Gilmore
HAGENS BERMAN SOBOL
SHAPIRO LLP
715 Hearst Avenue
Suite 202
Berkeley, CA 94710
(510) 725-3000
reed@hbsslaw.com
danielles@hbsslaw.com
lucasg@hbsslaw.com

Counsel for Plaintiff and
Respondent Alandra
Mothorpe

Steve W. Berman
HAGENS BERMAN SOBOL
SHAPIRO LLP
1301 Second Avenue
Suite 2000
Seattle, WA 98101
(206) 623-7292
steve@hbsslaw.com

Counsel for Plaintiff and
Respondent Alandra
Mothorpe

ATTN: HONORABLE ANDREW Y.S. CHENG
Clerk of the Superior Court
San Francisco Superior Court
400 McAllister Street, Dep’t 613
San Francisco, California 94102
(415) 551-3840
Department613ComplexLit@sftc.org
Additionally, in accordance with Supreme Court Rule 29.3, I transmitted
an electronic copy of the Application for a Stay Pending the Disposition of
Applicants’ Petition for a Writ of Certiorari and Request for an Immediate
Administrative Stay to the above-listed counsel and clerk of court via email.

Dated: May 3, 2021

By_____________________________
DEANNE E. MAYNARD
MORRISON & FOERSTER LLP
2100 L Street, NW
Washington, DC 20037
(202) 887-8740
dmaynard@mofo.com
Counsel for Applicants Pivotal
Software, Inc., Robert Mee,
Cynthia Gaylor, Paul Maritz,
Michael Dell, Zane Rowe, Egon
Durban, William D. Green,
Marcy S. Klevorn, and Khozema
Z. Shipchandler (filed on behalf
of and with the consent of counsel
for all Applicants)

